SIDLEY AUSTIN LLP
555 WEST FIFTH STREET
LOS ANGELES, CA 90013
+1 213 896 6000
+1 213 896 6600 FAX
JCANDRE@SIDLEY.COM
AMERICA • ASIA PACIFIC • EUROPE

(213) 896-6007

July 13, 2020
The Honorable Scott Harris
Clerk, Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

David Shinn v. George Russell Kayer, No. 19-1302 *** CAPITAL CASE ***

Dear Mr. Harris:
We represent the respondent, George Russell Kayer, in the above-referenced matter.
The petition for a writ of certiorari was filed on May 15, 2020. Respondent’s brief in
opposition is currently due, after one extension, on or before July 20, 2020. Respondent
respectfully requests, under Rules 15.3 and 30.4, a further extension of thirty days, to and including
August 19, 2020, to file his brief in opposition.
This extension is necessary both (1) because my colleagues and I face other proximate
deadlines before this Court, including a brief on the merits due on July 15, 2020, in Edwards v.
Vannoy, No. 19-5807, and a petition for a writ of certiorari due on July 17, 2020, in Henness v.
DeWine, 946 F.3d 287 (6th Cir. 2019); and (2) due to ongoing difficulties relating to COVID-19,
which has complicated preparations and impaired coordination with co-counsel and the client.
Petitioner consents to the requested extension.
As indicated by the enclosed certification of service, we have concurrently served a copy
of this letter upon counsel for the petitioner.
Thank you for your consideration of this request.
Very truly yours,

Jean-Claude André
cc:

Lacey Stover Gard, Esq.
Sidley Austin (CA) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

